APPENDIX 1
FOURTH CIRCUIT COURT OF APPEALS
OPINION DATED DECEMBER 19, 2019
!

. v

J

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 19-1980

GARY THOMAS KIRCHHOFF, I,
Plaintiff - Appellant,
v.
UNITED STATES GOVERNMENT; DEPARTMENT
OF THE ARMY; WALTER REED NATIONAL
MILITARY MEDICAL CENTER; PAUL MONGAN,
M.D., Ret. Col.; WILLIAM S. ARIMONY, Esq.; LAW
OFFICES OF WILLIAM S. ARIMONY,
Defendants - Appellees.

Appeal from the United States District Court for the
Western District of Virginia, at Roanoke. Glen E.
Conrad, District Judge. (7H8-cv00489-GEC)
Submitted' December 17, 2019
Decided^ December 19, 2019
la

Before KING, FLOYD, and HARRIS, Circuit Judges.

Affirmed by unpublished per curiam opinion.
Gary Thomas Kirchhoff, I, Appellant Pro Se. Justin
Michael Lugar, OFFICE OF THE UNITED STATES
ATTORNEY, Roanoke, Virginia; Phillip Verne
Anderson, Andrew Shane Gerrish, FRITH,
ANDERSON & PEAKE, PC, Roanoke, Virginia, for
Appellees.
Unpublished opinions are not binding precedent in
this circuit.
PER CURIAM:
Gary Thomas Kirchhoff, I, appeals the
district court’s orders dismissing his civil action and
denying Fed. R. Civ. P. 59(e) relief. We have
reviewed the record and find no reversible error.
Accordingly, we affirm for the reasons stated by the
district court. Kirchhoff v. U.S. Gov’t, No. 7:i8-cv00489-GEC (W.D. Va. Apr. 30 & Aug. 12, 2019). We
dispense with oral argument because the facts and
legal contentions are adequately presented in the
materials before this court and argument would not
aid the decisional process.
AFFIRMED
2a

APPENDIX 2
UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF VIRGINIA
ROANOKE DIVISION MEMORANDUM OPINION
April 29, 2019

IN THE UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF VIRGINIA
ROANOKE DIVISION
GARY KIRCHHOFF, M.D.,

)
)
)

Plaintiff,

)

Civil Action
No. 7U8CV00489

)

)
)

v.

MEMORANDUM
OPINION

)
)

UNITED STATES
GOVERNMENT, et al.,

)
)
)
)
)

Defendants.

By: Hon. Glen E.
Conrad
Senior United
States District
Judge

)

Gary Kirchhoff, M.D., proceeding pro se, filed
this action against the United States, the
Department of the Army, Walter Reed National
Military Medical Center (“Walter Reed”), Ret. Col.
Paul Mongan, M.D. (Col. Mongan and collectively,
the “federal defendants”), William S. Arimony, Esq.,
and the Law Offices of William S. Arimony
(collectively, the “Arimony defendants”). The case is
presently before the court on the defendants’
motions to dismiss. For the reasons set forth below,
the court will grant the defendants’ motions.
3a

Background
The following factual allegations, taken from
the plaintiffs complaint, are accepted as true for
purposes of the pending motions to dismiss. See
Erickson v. Pardus. 551 U.S. 89, 924 (2007)
(“[W]hen ruling on a defendant’s motion to dismiss, a
judge must accept as true all of the factual
allegations contained in the complaint.”)
Dr. Kirchhoff is an anesthesiologist and former
Army officer. Compl. PP 8, 18, 21, Dkt. No. 1. He
began working at Walter Reed in 2007. RL P 13.
Colonel Mongan was his commanding officer. Id. PP
14, 24.
Dr. Kirchhoff did not have a positive experience
working at Walter Reed. He alleges that other
officers, including Colonel Mongan, were jealous of
him because he had a private airplane and never
wore a uniform. Id. P 23. Dr. Kirchhoff further
alleges that “the practice of medicine at Walter Reed
was archaic, antiquated, and substandard,” and that
its medical residency program produced
“incompetently trained doctors.” Id. P 25. Dr.
Kirchhoff shared his concerns with other officers,
including one of Colonel Mongan’s friends. Id.
In May of 2008, the Army abruptly suspended
Dr. Kirchhoffs medical privileges. Id. P 27. Dr.
Kirchhoff maintains that the suspension was based
on false allegations made by Colonel Mongan. Id. P
29. The Army did not afford Dr. Kirchhoff the
opportunity to participate in any discussions
regarding the suspension or provide him with any
4a

other options. Id- P 28. A few months later, Colonel
Mongan retired from the Army and moved to
Florida. Id. P 30.
On January 7, 2009, the Army revoked Dr.
Kirchhoff s clinical privileges. Id. P 40. The decision
was purportedly “based on ‘failure to document pre­
anesthetic evaluations, failure to exercise sound
professional judgment in selecting anesthetic agents,
unnecessary delaying emergency surgery,
unprofessional handling of supervisory
responsibilities for resident physicians, and
disregard of patient concerns.’” Id. Dr. Kirchhoff s
privileges were permanently revoked on June 3,
2009. Id.
That same month, Dr. Kirchhoff contacted the
Law Offices of William S. Arimony in Alexandria,
Virginia. Id. P 32. Dr. Kirchhoff subsequently
“signed a contract with [Arimony] and paid him
$50,000 for representation to try and gain back his
medical privileges.” Id- Dr. Kirchhoff told Arimony
that “he felt he was being retaliated against by the
Army and Col. Mongan because they were jealous of
him and because he had reported that medical
training at Walter Reed was substandard.” Id. P 33.
Arimony advised the plaintiff that the only way he
could regain his medical privileges was to file an
appeal of the decision through the Army Board for
Correction of Military Records (“ABCMR”). Id. P 39.
Arimonj' also indicated that Dr. Kirchhoff “needed to
acquire letters by prominent physicians to support
his claim that he practiced the proper standard of
care with regard to the allegations against him.” Id.
5a

P 43. Dr. Kirchhoff did as he was instructed. Id. PP
44-47.
On February 6, 2011, Arimony filed an
application with the ABCMR on behalf of Dr.
Kirchhoff. Id. P 50. The application was denied in
October of 201 In Dr. Kirchhoff asked Arimony to file
a lawsuit on multiple occasions. Id. P 51. In October
of 2011, Arimony advised the plaintiff that “he didn’t
have a basis for suing” the Army and that “a lawsuit
against the Army would cost too much.” Id. P 52.
Consequently, Dr. Kirchhoff “fired” Arimony in 2011.
Id. PP 16,54. That same year, the Army
involuntarily discharged Dr. Kirchhoff. Id. P 57. His
efforts to find another lawyer to represent him were
unsuccessful. Id. P 54.
From 2009 to 2013, Dr. Kirchhoff was unable to
work as an anesthesiologist. Id. P 59. Consequently,
he “had no income and was forced to draw Social
Security.” Id. Dr. Kirchhoff estimates that he lost
over $2,000,000 in income as a result of the
suspension and revocation of his medical privileges.
Id. P 63.
Procedural History
Dr. Kirchhoff filed the instant action on October 9,
2018, alleging that the_defendants conspired to
revoke his medical privileges and prevent him from
l The plaintiff has submitted a copy of a letter from
the ABCMR informing him that his application was denied and
that the Board’s decision in his case was final. See Oct. 14,
2011, Ltr., Dkt. No. 37-1.

6a

acquiring gainful employment. In Count 1 his pro se
complaint, Dr. Kirchhoff_claims that the defendants
violated his rights under the First Amendment and
the_Whistleblower Protection Act of 1989. In Count
II, the plaintiff claims that the Defendants deprived
him of income and assets without due process, in
violation of_the Fifth Amendment. In Count III,
labeled “Misrepresentation and Concealment,” Dr.
Kirchhoff asserts that the defendants conspired to
revoke his medical privileges, providing him with
“ineffective assistance of counsel,” “drag his matter
out for two_years,” and “fail to file a lawsuit [within]
the statute of limitations.” Compl. P 98; see also Id.
P 103 (alleging that “the conduct of the defendants
constitutes conspiracy to engage in malpractice and
misrepresent Dr. Gary Kirchhoff and cause him
emotional distress”). In Count IV, Dr. Kirchhoff a
claim for intentional infliction of emotional distress
based on the defendants’ purported plan to revoke
his medical privileges and deprive him of income and
assets.
The defendants have moved to dismiss the
complaint under Rules 12(b)(1), 12(b)(5), and
12(b)(6) of the Federal Rules of Civil Procedure. The
defendants’ motions have been fully briefed and are
ripe for review.2
Standards of Review
Rule 12(b)(1) of the Federal Rules of Civil
2 The court has determined that oral argument would
not aid the decisional process.

7a

Procedure permits a party to move for dismissal of
an action for lack of subject matter jurisdiction. The
plaintiff bears the burden of proving that subject
matter jurisdiction exists. Evans v. B.F. Perkins Co..
166 F.3d 642, 647 (4th Cir. 1999). Dismissal for lack
of subject matter jurisdiction is appropriate if “the
material jurisdictional facts are not in dispute and
the moving party is entitled to prevail as a matter of
law.” Id. (internal citation and quotation marks
omitted). In deciding a motion to dismiss for lack of
subject matter jurisdiction, the court may “regard
the pleadings as mere evidence on the issue, and
may consider evidence outside the pleadings without
converting the proceeding to one for summary
judgment.” Id.
Rule 12(b)(6) permits a party to move for
dismissal of a complaint for failure to state a claim
upon which relief can be granted. When deciding a
motion to dismiss under this rule, the
court must accept as true all well-pleaded
allegations and draw all reasonable factual
inferences in the plaintiffs favor. Erickson.
551 U.S. at 94. “While a complaint attacked by a
Rule 12(b)(6) motion to dismiss does not need
detailed factual allegations, a plaintiffs obligation to
provide the grounds of the entitlement to relief
requires more than labels and conclusions, and a
formulaic recitation of the elements of a cause of
action will not do. Bell Atl. Corn v. Twomblv. 550
U.S. 544, 555 (2007) (internal citation and quotation
marks omitted). To survive dismissal, “a complaint
must contain sufficient factual matter, accepted as
8a

true, to ‘state a claim for relief that is plausible on
its face.’” Ashcroft v. Iqbal. 556 U.S. 662, 678
(2009)(quoting Twomblv. 550 U.S. at 570).
Discussion
I.

Claims Against the Federal Defendants

The federal defendants have moved to dismiss
the claims against them for lack of subject matter
jurisdiction. The federal defendants also argue that
all of the plaintiffs claims are barred
by the applicable statutes of limitations or otherwise
subject to dismissal under Rule 12(b)(6). For the
following reasons, the court will grant the federal
defendants’ motion.
A.

Subject Matter Jurisdiction

The federal defendants first argue that the
court lacks subject matter jurisdiction pursuant to
the military abstention doctrine established in Feres
v. United States. 340 U.S. 135 (1950). “Originally,
Feres stood for the proposition that the Government
is not liable under the Federal Tort Claims Act
(“FTCA”) for ‘injuries to servicemen where the
injuries arose out of or are in the course of activity
incident to service.’” Aikens v. Ingram. 811 F.3d 643,
648 (4th Cir. 2016)(quoting Feres, 340 U.S. at 146).
The Supreme Court has since “extended the Feres
‘incident to service’ test to causes of action outside
the FTCA realm, including claims against federal
9a

officials pursuant to Bivens v. Six Unknown Named
Agents of Federal Bureau of Narcotics. 402 U.S. 388
(1971).” Id. (citations omitted). Likewise, the United
States Court of Appeals for the Fourth Circuit has
joined its sister circuits in extending the Feres
doctrine to actions under 42 U.S.C. @ 1983.3 Id. at
649.
To determine the applicability of the Feres
doctrine, the court asks whether the injuries of
which the plaintiff complains “ariose] out of or
we [re] in the course of activity incident to service.’”
Id. at 650 (alterations in original)(quoting Feres. 340
U.S. at 146). The Supreme Court has declined to
adopt any bright-line rules regarding what type of
conduct is considered “incident to service.” See
United States v. Shearer, 473 U.S. 52, 57 (l985)(“the
Feres doctrine cannot be reduced to a few brightline rules...”). Instead, courts consider “whether
‘particular suits would call into question military
discipline and decisionmaking [and would] require
judicial inquiry into, and hence intrusion upon,
military matters.’” Cioca v. Rumsfeld. 720 F.3d 505,
510 (4th Cir. 2013)(quoting Stanley. 483 U.S. at 682.)
“In other words, where a complaint asserts injuries
that stem from the relationship between the plaintiff
and the plaintiffs service in the military, the
‘incident to service’ test is implicated.” Aikens. 811
3 Section 1983, which is cited in Count I of the
plaintiffs complaint, “only applies to state actors acting under
color of state law, not to federal actors.” Smith v. Donahoe. 917
F.Supp 2d 562, 568 (E.D. Va.2013) (citing Dowe v. Total Action
Against Poverty in Roanoke Valiev. 145 F.3d 653, 658 (4th Cir.
1998)).

10a

F.3d at 651 (additional internal quotation marks
omitted).
The Fourth Circuit has recognized that the
scope of the Feres doctrine is extremely broad. See
id- (Feres has grown so broad that this court once
noted, ‘the Supreme Court has embarked on a course
dedicated to broadening the Feres doctrine to
emcompass, at a minimum, all injuries suffered by
military personnel that are even remotely related to
the individual’s status as a member of the
military.”)(emphasis omittedXquoting Stewart v.
United States, 90 F.3d 102, 105 (4th Cir. 1996)). Post
Feres decisions make clear that “a plaintiff need not
be on duty” at the time of his injuries, that the
application of the doctrine “does not depend on the
military status of the alleged offender,” and that the
doctrine is not “restricted to actual military
operations.” Id- (citations omitted). Succintly stated,
“[plractically any suit that implicates the military’s
judgments and decisions runs the risk of colliding
with Feres.” Pringle v. United States. 208 F.3d 1220,
1224 (10th Cir. 2000)(emphasis and alterations
omitted)(quoting Dreier v. United States. 106 F.3d
844, 848 (9th Cir. 1997)).
Against this backdrop, the court has no
difficulty concluding that Dr. Kirchhoff s alleged
injuries arose out of activities incident to his service
in the military. Dr. Kirchhoff was on “active duty,”
working at a military medical center, when the
Army suspended and ultimate^ revoked his medical
privileges. Compl. PP 8, 27, 40. Taking the plaintiffs
allegations as true, the Army revoked his medical
11a

privileges because Colonel Mongan and other officers
were jealous of him and wanted to retaliate against
him for complaining about the medical care and
training provided at Walter Reed. While Dr.
Kirchhoff “may claim that this is an ‘egregious...
infringement’ of his rights,... there is no question
that the alleged infringement occurred incident to
[his] military service.” Aikens, 811 F.3d at 651
(quoting Erwin Chemerinsky, Federal Jurisdiction
622 (5th ed. 2007)). Accordingly, the court concludes
that the Feres doctrine applies to the constitutional
and tort claims asserted against the federal
defendants and that such claims are therefore
subject to dismissal for lack of subject matter
jurisdiction.4 See Ortiz v. United States. 786 F.3d
817, 829 (10th Cir. 2015)(emphasizing that “Feres is
a jurisdictional doctrine”).
B.

Statutes of Limitations

The federal defendants also argue that all of the
plaintiffs claims are barred by the applicable
statutes of limitations. For the following reasons, the
4 To the extent that the plaintiffs claims against the
federal defendants implicate the FTCA, the plaintiff is also
unable to satisfy his burden of establishing subject matter
jurisdiction because it is undisputed that the plaintiff failed to
file an administrative claim with the appropriate federal
agency. See 28 U.S.C. @ 2675(a); Ahmed V. United States. 30
F.3d 514, 516 (4th Cir. 1994)(“We have observed that the
requirement of filing an administrative claim is jurisdictional
and may not be waived.”’)(quoting Henderson v. United States.
785 F.2d 121. 123 (4th Cir. 1986)).

12a

court agrees. Thus, even if the Feres doctrine is
inapplicable to the plaintiffs claims, they are
nonetheless subject to dismissal under Rule 12(b)(6).
See Jones v. Bock. 549 U.S. 199, 215 (2007)(“a
complaint is subject to dismissal for failure to state a
claim if the allegations, taken as true, show the
plaintiff is not entitled to relief. If the allegations, for
example, show that relief is barred by the applicable
statute of limitations, the complaint is subject to
dismissal for failure to state a claim...”).
A.

Constitutional Claims

The statute of limitations for constitutional
claims under Bivens and a @ 1983 is borrowed from
the forum state’s personal injury statute. See Wilson
v. Garcia. 471 U.S. 261, 276 (1985). Virginia has a
two-year statute of limitations for personal injury
actions. Va. Code @ 8.01*243(A). Accordingly, a
plaintiff seeking to bring a civil rights action under
Bivens or a @ 1983 in Virginia must do so within two
years after the cause of action accrues.
The question of when a cause of action accrues
under Bivens or @ 1983 is an issue of federal law.
Nasim v. Warden. Md. House of Corr., 64 F.3d 951,
955 (4th Cir. 1995)(en banc). “Under federal law a
cause of action accrues when the plaintiff possesses
sufficient facts about the harm done to him that
reasonable injury will reveal his cause of action.” IdAlthough “it is critical that the plaintiff kn[ow] that
he has been hurt and who inflicted the injury,” Id.,
the plaintiff need know the full extent of his injuries
13a

r

/

before the statute of limitations begins to run. See
Wallace v. Keto. 549 U.S. 384, 391 (2007)(“The cause
of action accrues even though the full extent of the
injury is not then known or predictable.”).
In this case, Dr. Kirchhoff claims that the
federal defendants revoked his medical privileges in
retaliation for exercising his rights under the First
Amendment and that he was denied due process in
connection with the revocation of his medical
privileges. The plaintiffs medical privileges were
permanently revoked on June 3, 2009. The plaintiff
believed at the time that “he was being retaliated
against by the Army and Col. Mongan because they
were jealous of him and because he had reported
that medical training at Walter Reed was
substandard.” Comp. P 33; see also Id. PP 32-33
(alleging that he shared his information with -'
Arimony in June of 2009). Nonetheless, Dr.
Kirchhoff did not file the instant action until October
of 2018, more than nine years later.5 Consequently,
the court concludes that his constitutional claims
against the federal defendants are untimely.
The court further concludes that Dr. Kirchhoff
5 The court also notes that the plaintiffs own exhibits
indicate that, more than six years before the instant action was
filed, the plaintiff began to complain to elected officials that the
Army had retaliated against him “to cover-up the poor quality
of medical care provided by the Army’s physicians,” and that he
had been denied due process in connection with the revocation
of his medical privileges. See e.g.. July 9, 2012 Ltr. to
Congressman Robert Hurt, Dkt. No. 37-7.

. 14a

fails to establish extraordinary circumstances
warranting equitable tolling of the statutory period.
“Plaintiffs are entitled to equitable tolling only if
they show that they have pursued their rights
diligently and extraordinary circumstances
prevented them from filing on time.” Ranlee v.
United States. 842 F.3d 328, 333 (4* Cir. 2016). The
Fourth Circuit has explained that equitable tolling is
reserved for “those ‘rare instances where - due to
circumstances external to the party’s own conduct it would be unconscionable to enforce the limitation
period against the party and gross injustice would
result.’” Whiteside v. United States. 775 F.3d 180,
184 (2014)(en bancXquoting Rouse v. Lee. 339. F.3d
238, 246 (4th Cir. 2003)(en banc)).
Dr. Kirchhoff appears to argue that the delay '
in filing the instant action is attributable to
negligence on the part of Arimony. See e.g., Compl. P
51 (“Plaintiff had been telling Attorney Arimony
multiple times to file a lawsuit. However, he
and his law firm continually made excuses and kept
dragging the matter on.”); Id. P 53 (“Attorney
Arimony and his law firm were negligent in their
representation of Dr. Kirchhoff and engaged in legal
malpractice...”). However, “attorney ‘negligence,
even gross negligence,’ does not qualify as an
extraordinary circumstance for purposes of equitable
tolling.” Cromartie v. Ala. State Univ., 693 F. App’x
852, 853 (11th Cir. 2017)(quoting Cadet v. Fla. Dep’t
of Corn, 853 F.3d 1216, 1227 (11th Cir. 2017)); see
also Gayle v. United Parcel Serv.. Inc.. 401 F.3d 222,
226-227 (4th Cir. 2005) (holding that “attorney
15a

negligence — including allowing a client’s case to fall
through the cracks — is [not] . . . ‘extraordinary
circumstance’” justifying equitable tolling). Nor does
ignorance of the law, “even when a party does not
have legal representation.” Ott v. Md. Den’t of Pub.
Safety & Corr. Servs.. 909 F.3d 655, 661 (4th Cir.
2018).
For these reasons, the court concludes that it is
clear from the plaintiffs complaint that his
constitutional claims against the federal defendants
are time-barred. Accordingly, the claims are also
subject to dismissal under Rule 12(b)(6).
B.

Tort Claims

“The FTCA is the exclusive remedy for torts
committed by a government employee in the scope of
his employment.” Goodwvn v. Simons. 90 F. App’x
680, 681 (4th Cir. 2004)(citing United States v.
Smith. 499 U.S. 160 (1991)); see also Willoughby v.
United States. 730 F.3d 476 (5th Cir. 2013)(“[The
FTCA] is the exclusive remedy for suits against the
United States or its agencies sounding in
tort.”)(citing 28 U.S.C @ 2679(a)). The FTCA’s
statute of limitation provides that a tort claim “shall
be forever barred” unless it is “presented within two
years after such claim accrues.” 28 U.S.C. @ 240(b).
As a general rule, a claim accrues “when the plaintiff
knows both the existence and cause of his injury.”
United States v. Kubrick. 444 U.S. Ill, 113 (1979).
It is clear from the complaint that the tort
claims asserted against the federal defendants are
16a

barred by the statute of limitations. Each of Dr.
Kirchhoff s claims is based on the revocation of his
medical privileges and the acts or omissions of his
attorney. See Compl. P 98 (alleging that the
defendants conspired to revoke his medical
privileges, provide him with “ineffective assistance of
counsel,” “drag his matter out for two years,” and
“fail to file a lawsuit [within] the statute of
limitations”); IcL P 103 (alleging that “the conduct of
the defendants constitutes conspiracy to engage in
malpractice and misrepresent Dr. Gary Kirchhoff
and cause him emotional distress”). Id. P 107
(alleging that the plaintiff suffered emotional
distress as a result of the defendants’ “devious plan
to revoke [his] medical privileges to deprive him of
his income and assets”). As indicated above, Dr.
Kirchhoff s medical privileges were permanently
revoked in June of 2009, and he “fired” Arimony in
2011, after the attorney declined to file a lawsuit on
his behalf. Compl. PP 52, 54. Thus, the statute of
limitations applicable to the tort claims against the
federal defendants has long expired and such claims
are subject to dismissal under Rule 12(b)(6).6
C.

Whistleblower Claim

Dr. Kirchhoff also claims that the federal
6 The court also notes that the United States is the
only proper defendant in an FTCA action. See Webb v.
Hamidullah. 281 F. App’x 159, 161 n.4 (4* Cir. 2008) (citing 28
U.S.C. @ 2674); see also 28 U.S.C. @ 2679(b)(1).

17a

defendants violated the “Whistleblower Protection
Act of 1989.” Compl. P 84. However, that act does
not apply to active or reserve uniformed services.
See 5 U.S.C. @2105 & 2302; see also Verbeck v.
United States 89 Fed. Cl. 47, 61 (Fed. Cl. 2009)
(explaining that the Whistleblower Protection Act
applies to “civilian employees of the federal
government”). Assuming that Dr. Kirchhoff intended
to invoke the Military Whistleblower Protection Act
of 1988 (“MWPA”), 10 U.S.C.@1034, he “fares no
better . . . because the statute does not ‘provide . . .
any private cause of action, express or implied.”’
Jackson v. Spencer. 313 F. Supp. 3d, 302, 308
(D.D.C. 2018)(quoting Acquisto v. United States. 70
F.3d 1010, 1011 (8th Cir. 1995)); see also Mackall v.
United States Den’t of Defense. No. L17-cv-00774,
2017 U.S. Dist. LEXIS 191213, at *14 (D. Md. Nov.
20, 2017)(“[T]he MWPA only provides for
administrative remedies, it does not provide a
private cause of action.”)(citations omitted).
Accordingly, Dr. Kirchhoffs whistleblower
retaliation claims must be dismissed.
D.

Request for Review of the Revocation of
Medical Privileges and Involuntary
Discharge

Although Dr. Kirchhoff s complaint does not
specifically cite to the Administrative Procedures Act
(“APA”), 5 U.S.C.@ 701 eh sea., the federal
defendants liberally construe the complaint as
requesting review of the adverse decisions made by
18a

the Army and the ABCMR. Under the APA, the
court “may set aside an agency’s actions or decisions
if they are ‘arbitrary, capricious, an abuse of
discretion’ or ‘contrary to constitutional right.’”
Roland v. United States Citizenship & Immigration
Servs.. 850 F.3d 625, 629 n.3 (4th Cir. 2017)(quoting
5 U.S.C. @706(2)(A)-(B)). APA claims are subject to
the six-year statute of limitations generally
applicable to claims against the government. Id-’ see
also 28 U.S.C. @ 2401(a). “Conduct becomes
reviewable under the APA upon final agency action,
in other words, when the agency has completed its
decisionmaking process, and when the result of that
process is one that will directly affect the parties.”
Jersey Heights Neighborhood Ass’n v. Glendening,
174 F.3d 180, 186 (4th Cir. 1999)(internal quotation
marks and alterations omitted). Thus, an APA claim
“accrues at the time of a final agency action.” Latin
Ams for Soc. & Econ. Dev. V. Adm’r of the Fed.
Highway Admin., 765 F.3d 447, 464 (6th Cir.
2014)(citing 5 U.S.C. @ 704)).
Here, the Army permanently revoked Dr.
Kirchhoff s medical privileges on June 3, 2009. The
plaintiff was involuntarily discharged from the Army
in October of 2011. That same month, the ABCMR
denied his application for review and correction.
Because Dr. Kirchhoff did not file the instant action
until October 9, 2018, more than six years later, any
APA claims arising from those decisions are timebarred.
H. Claims Against the Arimonv Defendants
19a

The Arimony defendants have moved to
dismiss the complaint under Rules 12(b)(5) and
12(b)(6). For the following reasons, the court
concludes that the complaint fails to state a
claim against the Arimony defendants.7 According,
the court will grant their motion to dismiss.
A.

Constitutional Claims

Dr. Kirchhoff alleges in a conclusory fashion
that all of the defendants, including Arimony and his
law firm, “are government actors and/or entities of
the United States.” Compl. P 17. However, the
complaint is entirely devoid of facts that would
plausibly support the determination that the
Arimony defendants are federal or state actors, or
that they conspired with the federal defendants to
violate the plaintiffs constitutional rights. See
Cooney v. Rossiter, 583 F.3d 967, 971 (7th Cir.
2009)(emphasizing that even before Twombly and
Iqbal, “a bare allegation of conspiracy was not
enough to survive a motion to dismiss for
failure to state a claim”). Because the constitutional
provisions cited in the complaint do not apply to
private actors, Counts I and II fail to state a claim
against the Arimony defendants.8 See e.g.. Dixon v.
Coburg Dairy. 369 F.3d 811, 817 n.5 (4th Cir.
7 In light of the court’s decision, the court need not
address the alternative ground for dismissal under Rule
12(b)(5) based on insufficient service of process.
8 Additionally, for the reasons set forth above, the
plaintiffs constitutional claims are clearly time-barred.

20a

2004)(‘To the extent that Dixon’s complaint can be
interpreted as stating a cause of action based
directly on the First Amendment, such a claim
would be too insubstantial to invoke federal question
jurisdiction because the First Amendment does not
apply to private employers.”); Smith v. Kitchen. 156
F.3d 1025, 1028 (10th Cir. 1997)(“[E]ven if we were
generously to construe Smith’s complaint as raising
a Bivens-style claim for conduct under federal law
(which it is not), the claim still would be deficient as
a matter of law because the underlying
constitutional right that Smith asserts - - due
process under the Fifth Amendment - - does
not apply to the conduct of private actors who are
defendants in this case.”).
B.

State Law Claims

Liberally construed, the plaintiffs complaint
also asserts claims of fraud, legal malpractice, and
intentional infliction of emotional distress against
the Arimony defendants. For the following reasons,
the court agrees with the Arimony defendants that
such claims must be dismissed as untimely.
Under Virginia law, a two-year statute of
limitations applies to claims of fraud and intentional
infliction of emotional distress. See Schmidt v.
Household Fin. Corn.. II, 661 S.E.2d 834, 838 (Va.
2008)(“The statute of limitations for actual fraud
and constructive fraud... is two years.”)(citing Va.
Code @8.01-243); Luddeke v. Amana Refrigeration.
Inc.. 387 S.E.2d 502, 504 (Va. 1990) (“[Ilntentional
21a

infliction of emotional distress, an action for
personal injury, is governed by a two-year statute of
limitations .’’Xciting Va. Code @8.01-243). A claim for
fraud accrues “when such fraud... is discovered or by
the exercise of due diligence reasonably should have
been discovered.” Va. Code Ann. @ 8.01-249. “Any
cause of action for intentional infliction of emotional
distress accrues and the time limitation begins to
run when the tort is committed.” Mahoney v. Becker.
435 S.E.2d 139, 141 (Va. 1993).
As indicated above, Arimony represented Dr.
Kirchhoff “from 2009 to 2011.” Compl. P 15. Dr.
Kirchhoff “fired” Arimony at the end of 2011, after
the attorney declined to file a lawsuit on the
plaintiffs behalf and advised him that “he didn’t
have a basis for suing” the Army. Id. PP 52-54.
Because Dr. Kirchhoff did not file the instant action
until approximately seven years later, the court
agrees with the defendants that the claims for fraud
and intentional infliction of emotional distress are
untimely. Although Dr. Kirchhoff summarily alleges
that he was “unaware” of any “fraud-related crimes”
until he contacted a non-profit legal organization in
2018, there is no simply no plausible basis for
concluding that, “despite the exercise of due
diligence, he could not have discovered the alleged
fraud [except] within the two-year period before he
commenced the actionU” Schmidt. 661 S.E.2d at
839). As indicated above, ignorance of the law, even
by pro se litigants, does not toll the limitations
period. See Ott, 909 F.3d at 661. Nor does the
“continuing violation” doctrine apply in this case.
22a

See Scoggins v. Lee’s Crossing Homeowners Ass’n.
718 F.3d 262, 271 (4th Cir. 2013)(explaining that acts
occurring outside the statute of limitations may be
considered under the “continuing violation” doctrine
only “when there is a fixed and continuing practice
of unlawful acts both before and during the
limitations period”) (internal quotation marks
omitted).
The court likewise concludes that any claim for
legal malpractice against the Arimony defendants is
time-barred. In Virginia, “[t]he statute of limitations
for legal malpractice actions is the same as those for
breach of contract because although legal
malpractice sounds in tort, it is the contract that
gives rise to the duty.” Shipman v. Kruck, 593
S.E.2d 319, 322 (Va. 2004). A five-year statute of
limitations applies to contract actions based on a
written contract. Va. Code @8.01-246. The statute
begins to run “when the attorney’s work on the
particular undertaking at issue has ceased.” Id. at
3241 see also Moonlight Enters.. LLC v. Mroz, 797
S.E.2d 536, 539 (Va. 2017)(explaining that “the
limitation period... begins on... the date when the
attorney renders his last professional services’
related to the particular undertaking”). Because
Arimony was allegedly fired in 2011, Dr. Kirchhoff
had until 2016 to pursue a claim for legal
malpractice. Consequently, the instant action, filed
two years later, is clearly untimely.
Conclusion
For the reasons stated, the court will grant the
23a

defendants’ motions to dismiss. The clerk is directed
to send copies of this memorandum opinion and the
accompanying order to the plaintiff and all counsel
of record.
DATED: This 29^ day of April, 2019.
Glen Conrad
Senior United States District Judge

24a

